APPENDIX

ii
APPENDIX
TABLE OF CONTENTS
Appendix
A

Appendix
B

Appendix
C

Appendix
D

Appendix
E

Opinion of the United States Court of
Appeals for the Fifth Circuit,
No. 20-20248
Christopher Sullivan v. Texas A&M
University System
(February 2, 2021) .............................. 1
Order of United States District Court
Southern District of Texas
Houston Division
Civ. Action No. 4:20-cv-2014
Norma Soto v. MD Anderson Services
Corporation, et al.
(April 29, 2021) .................................. 13
Order of the United States District Court
for the Southern District of Texas
Houston Division,
Case No. 4:19-CV-4586
Christopher Sullivan v. Texas A&M
University,
(April 8, 2020) ................................... 15
Plaintiff’s Original Petition
United States District Court for the
Southern District of Texas Houston
Division,
Case No. 4:19-CV-4586
Christopher Sullivan v. Texas A&M
University,
(November 22, 2019) ......................... 17
Texas Labor Code Chapter 21.211 ...26

iii
Appendix
F

Texas Workforce Commission
https://www.twc.texas.gov/programs/civilrights-program-overview...................27
Tex. Const., art. I, § 19 ......................29

Appendix
G
Appendix U.S. Const. amend. XI ....................... 30
H
Appendix I U.S. Const. amend. XIV, §1 ............. 31

Pet. App. 1
APPENDIX A
Case: 20-20248 Document: 00515730082 Date Filed: 02/02/2021

United States Court of Appeals
for the Fifth Circuit
No. 20-20248

Christopher Sullivan,
Plaintiff—Appellant,
Versus
Texas A&M University System,
Defendant—Appellee.

Appeal from the United
States District Court for
the Southern District of Texas
USDC No. 4:19-CV-4586
Before Haynes, Higginson, and Oldham, Circuit
Judges.

Andrew S. Oldham, Circuit Judge:

Christopher

Sullivan

sued

Texas

A&M

University for money damages. The district court held
that sovereign immunity barred the suit. We affirm.
I.
Sullivan was diagnosed with atrial fibrillation
in April 2012. Shortly thereafter, he began training at
the Texas A&M University Police Department.

Pet. App. 2
Sullivan sought and received treatment for his
condition, and the University eventually offered him
employment in data entry and filing.
No. 20-20248
Sullivan received a series of poor performance
evaluations. The police department terminated him in
November 2017. Sullivan then filed disabilitydiscrimination and retaliation claims with the Equal
Employment Opportunity Commission. The EEOC
issued him a Right to Sue letter.
Sullivan timely filed suit in the United States
District Court for the Southern District of Texas. He
alleged employment-discrimination claims under
Title I of the Americans with Disabilities Act, 42
U.S.C. §§ 12101 et seq. (“ADA”), and the Texas
Commission on Human Rights Act, Tex. Lab. Code §§
21.001 et seq. (“TCHRA”). He further alleged unlawful
retaliation in violation of both Title I of the ADA and
the Family Medical Leave Act, 29 U.S.C. §§ 2601 et
seq. (“FMLA”). The suit sought compensatory
damages, punitive damages, and attorney’s fees.
The district court dismissed all of Sullivan’s
claims as barred by sovereign immunity. That
dismissal was without prejudice. See Warnock v. Pecos
Cnty., 88 F.3d 341, 343 (5th Cir. 1996) (holding
sovereign-immunity- based dismissals are without
prejudice); 9 Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 2373, at 756–57

Pet. App. 3
(3d ed. 2008) (explaining that because dismissal for
lack of jurisdiction does not reach the merits, the
claim “must be considered to have been dismissed
without prejudice”). Sullivan timely appealed.
II.
Texas A&M is an agency of the State of Texas,
so a suit against the former is a suit against the latter.
Moore v. La. Bd. of Elementary & Secondary Educ.,
743 F.3d 959, 963 (5th Cir. 2014). That’s a problem for
Sullivan because the Constitution affords States
sovereign immunity against suit. Hans v. Louisiana,
134 U.S. 1, 13 (1890). And that sovereign immunity is
a jurisdictional roadblock. Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 64 (1996).
To establish jurisdiction, Sullivan must invoke
one of two exceptions to sovereign immunity. First, he
could argue Congress validly abrogated the State’s
sovereign immunity. See Coll. Sav. Bank v. Fla.
Prepaid Postsecondary Educ. Expense Bd., 527 U.S.
666, 670 (1999). Second, he could argue the State
knowingly and plainly waived its sovereign immunity
and consented to suit. See ibid. Neither exception
applies here.
A.
Let’s start with abrogation. The ADA provides
that “[a] State shall not be immune under the eleventh
amendment to the Constitution of the United States
from an action in Federal or State court of competent

Pet. App. 4
jurisdiction for a violation of this chapter.” 42 U.S.C.
§ 12202. This provision at least purports to abrogate
the States’ sovereign immunity. 1 But the Supreme
Court

has

held

that

Congress

exceeded

its

constitutional abrogation authority in enacting §
12202. Bd. of Trs. of Univ. of Ala. v. Garrett, 12202 as
a synonym for the States’ broader constitutional
immunity. See Bd. of Trs. of Univ. of Ala. v. Garrett,
531 U.S. 356, 363–64 (2001) (holding § 12202
constitutes an “unequivocal[]” congressional attempt
to abrogate).

The ADA attempts to abrogate the States’ immunity “under the
eleventh amendment.” 42 U.S.C. § 12202. The Eleventh
Amendment provides that “[t]he Judicial power of the United States
shall not be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United States by
Citizens of another State.”
1

U.S. Const. amend. XI. By its terms, the Amendment does not apply
to the situation in today’s appeal—where a citizen sues his own
State (or an agency of that State). Still, the Supreme Court has
often used “Eleventh Amendment immunity” as a synonym for the
States’ broader constitutional sovereign immunity. See, e.g.,
Seminole Tribe, 517 U.S. 44 (generally using “state sovereign
immunity”
and
“Eleventh
Amendment
immunity”
interchangeably); cf. id. at 54 (explaining that the Court
understood the Eleventh Amendment to “confirm[]” “the
presupposition” that “each State is a sovereign entity in our federal
system” (quotation omitted)); Franchise Tax Bd. of Cal. v. Hyatt,
139 S. Ct. 1485, 1496 (2019) (“Although the terms of [the Eleventh]
Amendment address only . . . specific provisions . . . , the natural
inference from its speedy adoption is that the Constitution was
understood . . . to preserve the States’ traditional immunity from
private suits.” (quotation omitted)). The Supreme Court has likewise
read “eleventh amendment immunity” in

Pet. App. 5
531 U.S. 356, 374 (2001). Accordingly, Sullivan cannot
rely on abrogation to overcome Texas’s sovereign
immunity from his claim under Title I of the ADA.
The same is true of Sullivan’s claim under the
FMLA. That statute, like the ADA, purports to make
States amenable to suit. See 29 U.S.C.
§ 2617(a)(2) (creating a cause of action for damages
“against any employer (including a public agency)”);
id. §§ 203(x), 2611(4)(A)(iii) (defining “public agency”
to include both “the government of a State or political
subdivision thereof” and “any agency of . . . a State, or
a political subdivision of a State”). With respect to the
FMLA’s family-care provision, 29 U.S.C.
§ 2612(a)(1)(C), Congress acted constitutionally in
making the States amenable to suit. See Nev. Dep’t of
Hum. Res. v. Hibbs, 538 U.S. 721, 724–25 (2003). But
Sullivan did not sue under the family-care provision;
he sued under the FMLA’s self-care provision, 29
U.S.C. § 2612(a)(1)(D). And with respect to the latter,
Congress exceeded its constitutional powers in trying
to make States amenable to suit. See Coleman v. Ct.
of Appeals of Md., 566 U.S. 30, 43–44 (2012).
Accordingly, Sullivan cannot rely on abrogation to
overcome Texas’s sovereign immunity from his FMLA
claim.
B.
That means Sullivan can overcome sovereign
immunity only by showing that Texas knowingly

Pet. App. 6
waived its immunity—that is, consented—to his suit.
Sullivan invokes both federal and state law. Neither
helps him.
1.
First, the State of Texas did not waive its
immunity to suit by accepting financial assistance
under federal law. It’s true that States can, under
certain

circumstances,

waive

their

sovereign

immunity by accepting federal funds and then
violating “section 504 of the Rehabilitation Act of
1973, title IX of the Education Amendments of 1972,
the Age Discrimination.
Act of 1975, title VI of the Civil Rights Act of
1964, or the provisions of any other Federal statute
prohibiting discrimination by recipients of Federal
financial assistance.” 42 U.S.C. § 2000d-7(a)(1).
Thus, for example, we have held that a State is
amenable to suit where it operates a program in
violation of the Rehabilitation Act and accepts
federal financial assistance for that state program.
Pace v. Bogalusa City Sch. Bd., 403 F.3d 272, 288–
89 (5th Cir. 2005) (en banc).
But

Sullivan

did

not

sue

under

the

Rehabilitation Act. He sued under Title I of the ADA
and the FMLA. Unlike the Rehabilitation Act, the
ADA and the FMLA are not among the statutes
mentioned in § 2000d-7(a)(1). So Sullivan’s argument

Pet. App. 7
turns on whether the ADA or the FMLA fall within
§ 2000d-7(a)(1)’s residual clause—that is, whether
the ADA or the FMLA constitutes “any other Federal
statute prohibiting discrimination by recipients of
Federal financial assistance.”
Our

precedent

forecloses

Sullivan’s

argument. In Cronen v. Texas Department of Human
Services, 977 F.2d 934 (5th Cir. 1992), we addressed
the scope of § 2000d-7(a)(1)’s residual clause. Like
Sullivan, the plaintiff in that case argued the
residual

clause

prohibiting

covered

discrimination

“any
and

federal

statute

involving

the

distribution of any federal financial assistance.” Id.
at 937. We thought another interpretation was more
persuasive—the residual clause reaches “only . . .
statutes that deal solely with discrimination by
recipients of federal financial assistance.” Ibid.
(emphasis added); accord Sullivan v. Univ. of Tex.
Health Sci. Ctr. Houston Dental Branch, 217 F.
App’x 391, 395 (5th Cir. 2007) (per curiam) (finding
the ADEA does not fall within § 2000d-7(a)(1)’s
residual clause because the “ADEA prohibits age
discrimination by ‘employers,’ not by those who
receive federal financial assistance”).
That narrower interpretation accords with
§ 2000d-7(a)(1)’s text. The listed statutes preceding
the residual clause all limit their substantive

Pet. App. 8
antidiscrimination provisions to recipients of federal
funding. See 29 U.S.C. § 794(a) (prohibiting
discrimination on the basis of disability in “any
program or activity receiving Federal financial
assistance”); 20 U.S.C. § 1681(a) (prohibiting
discrimination on the basis of sex “under any
education program or activity receiving Federal
financial assistance”); 42 U.S.C. § 6102 (prohibiting
discrimination on the basis of age in “any program
or activity receiving Federal financial assistance”);
42 U.S.C. § 2000d (prohibiting discrimination on the
basis of race, color, or national origin in “any
program or activity receiving Federal financial
assistance”).
The residual clause then sweeps in “any other
Federal statute” that also prohibits “discrimination
by recipients of Federal financial assistance.” 42
U.S.C. § 2000d-7(a)(1). So the listed statutes define
a set—“statutes that deal solely with discrimination
by recipients of federal financial assistance.”
Cronen, 977 F.2d at 937 (emphasis added). And a
plaintiff seeking to invoke the residual clause must
show his cause of action arises under a statute
within that defined set. See Yates v. United States,
574 U.S. 528, 545 (2015) (“Where general words
follow specific words in a statutory enumeration, the
general words are usually construed to embrace only

Pet. App. 9
objects

similar

in

nature

to

those

objects

enumerated by the preceding specific words.”
(quotation omitted)). If Congress wanted the
residual clause to sweep as broadly as Sullivan’s
interpretation, it could have written the statute to
cover

“any

other

Federal

statute

prohibiting

discrimination.” It didn’t, and we refuse to render
meaningless the words Congress did choose. See
Duncan v. Walker, 533 U.S. 167, 174 (2001) (“It is
our duty to give effect, if possible, to every clause and
word of a statute.” (quotation omitted)). 2
Limiting the sweep of the residual clause to “statutes that deal
solely with discrimination by recipients of federal financial
assistance,” Cronen, 977 F.2d at 937, also reflects the constitutional
source of waiver conditions in federal funding programs. Pursuant to
the General Welfare Clause, Congress may impose obligations on
the States as a condition of their receiving federal funding. See
South Dakota v. Dole, 483 U.S. 203, 207 (1987); U.S. Const. art. I,
§ 8, cl. 1 (“The Congress shall have Power . . . to pay Debts and
provide for the common Defence and general Welfare of the
United States”).
2

Thus, the “[S]tate may waive its immunity by voluntarily
participating in federal spending programs when Congress expresses a
clear intent to condition participation in the programs on a State’s
consent to waive its constitutional immunity.” Pederson v. La. State
Univ., 213 F.3d 858, 876 (5th Cir. 2000) (quotation omitted). So, for
example, we have held that Title IX “operates much in the nature
of a contract”—in return for federal funds the State “consent[s]
to be sued in federal court for an alleged breach of the promise
not to discriminate.” Litman v. George Mason Univ., 186 F.3d
544, 551–52 (5th Cir. 1999) (quotation omitted). By contrast, where
Congress enacts a statute pursuant to another grant of power, it does
not offer States a contractual exchange of funding for a waiver. See,
e.g., Levy v. Kan. Dep’t of Soc. & Rehab. Servs., 789 F.3d at 1170 (10th

Pet. App. 10
circuits and a number of lower courts. See Levy v. Kan.
Dep’t of Soc. & Rehab. Servs., 789 F.3d 1164, 1171
(10th Cir. 2015); Fields v. Dep’t of Pub. Safety, 911 F.
Supp. 2d 373, 379 & n.6 (M.D. La. 2012); PanzardiSantiago v. Univ. of P.R., 200 F. Supp. 2d 1, 9 (D.P.R.
2002). 3
Like

the

ADA,

the

FMLA’s

substantive

provisions cover a far broader range of entities than
“recipients of Federal financial assistance.” 42 U.S.C.
§ 2000d-7(a)(1). Under the FMLA, an “employer” may
not deny leave to an “eligible employee” for covered
medical needs. See 29 U.S.C. § 2612(a)(1) (leave
requirements); id. § 2611(2)(A) (defining “eligible
employee”); id.
§ 2611(4)(A) (defining “employer”). The FMLA
Cir. 2015) (finding no waiver of sovereign immunity for ADA claims
in the Rehabilitation Act’s residual clause, in part because “the
under wholly different provisions of the
statutes were enacted
Constitution”). Our interpretation of § 2000d-7 reflects this
dichotomy—only statutes enacted pursuant to the General Welfare
Clause fall within the contractual waiver offered in § 2000d-7(a)(1).
Sullivan also sues under Title V of the ADA, which prohibits
certain acts of retaliation. But we recently held: “Title V itself
does not abrogate a [S]tate’s sovereign immunity. Instead, a
plaintiff may bring a retaliation claim against a state entity only to
the extent that the underlying claim of discrimination effectively
abrogates sovereign immunity of the particular [S]tate.” Block v. Tex.
Bd. of L. Exam’rs, 952 F.3d 613, 619 (5th Cir. 2020) (quotation
omitted). Because Sullivan’s underlying Title I claim is barred by
sovereign immunity, so too is his Title V claim.
3

Pet. App. 11
defines “employer” as “any person engaged in
commerce or in any industry or activity affecting
commerce who employs 50 or more employees for each
working day during each of 20 or more calendar
workweeks in the current or preceding calendar year.”
Id. § 2611(4)(A)(i). And the statute’s anti-retaliation
provisions are equally broad—they make it unlawful
for “any employer” to “interfere with, restrain, or deny
the exercise of” substantive FMLA rights. Id. §
2615(a)(1). Because the FMLA is not a statute that
“deal[s] solely with discrimination by recipients of
federal financial assistance,” Cronen, 977 F.2d at 937,
it does not fall within the ambit of § 2000d-7(a)(1)’s
residual clause.
Accordingly, Sullivan has failed to show that
the State waived its sovereign immunity under §
2000d-7(a)(1).
2.
Finally, Sullivan points to state law to find
Texas’s waiver to his suit. Again, Sullivan fails. In the
TCHRA, the State of Texas waives its immunity to
suit in state courts, but it “does not expressly waive
sovereign immunity in federal court.” Perez v. Region
20 Educ. Serv. Ctr., 307 F.3d 318, 332 (5th Cir. 2002);
see Port Auth. Trans-Hudson Corp. v. Feeney, 495 U.S.
299, 306–07 (1990).
AFFIRMED.

Pet. App. 12
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
NORMA SOTO,
Plaintiff,
VS.

CIVIL ACTION NO. 4:20-CV-2014

MD ANDERSON SERVICES
CORPORATION and
MD ANDERSON CANCER CENTER,
Defendants.
ORDER
Before the Court is the defendant’s, M. D.
Anderson Cancer Center, motion to dismiss [DE 16]
and the plaintiff’s, Norma Soto, response [DE 17]. The
Court has reviewed the documents and pleadings and
determines that the motion should be Denied.
The defendant states as the bases for dismissal
that it enjoys sovereign immunity concerning the
plaintiff’s ADA and TCHRA claims, pursuant to the
Eleventh Amendment to the federal Constitution.
Notably, the defendant waited until the eve of the trial
to file this motion. Nevertheless, the defendant
disputes that the plaintiff has asserted a cause of
action that survives a Rule 12(b)(6) motion. The Court

Pet. App. 13
holds the contrary. The plaintiff’s suit is sufficiently
stated such that the defendant is not confused about
her claims. The conduct alleged as having been
committed by the defendant is beyond “threadbare
rituals.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
The defendant’s sovereign immunity defense to
the plaintiff’s claims must also be denied. The plaintiff
asserts causes of action under both federal and state
law. Moreover, the defendant receives federal funding
and, therefore, has knowingly and voluntarily waived
any claim(s) that it might assert under the Eleventh
Amendment. See Pederson v. La. State Univ., 213
F.3d 8358, 876 (5th Cir. 2006). The defendant’s motion
to dismiss is, therefore, Denied in its entirety.
It is so Ordered.
SIGNED on this 29th day of April, 2021

Kenneth M. Hoyt
United States District Judge

Pet. App. 14
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CHRISTOPHER SULLIVAN,
Plaintiff,
v.

CASE NO. 4:19-CV-4586

TEXAS A&M UNIVERSITY
Defendant.
ORDER
Pending before the Court is Defendant Texas
A&M University’s (“TAMU’s”) Motion to Dismiss.
(Instrument No. 6). Plaintiff Christopher Sullivan
(“Plaintiff”) brings claims against TAMU, alleging
violations of (1) the Americans with Disabilities Act
(“ADA”), (2) Family Medical Leave Act (“FMLA”), and
(3) Texas Commission on Human Rights Act
(“TCHRA”). (Instrument No. 1 at 2). Having read and
considered said Motion, Plaintiff Christopher
Sullivan’s Response, and TAMU’s Reply, the Court
finds that the Motion to Dismiss should be
GRANTED.
All claims brought forth by Plaintiff are barred
by the Eleventh Amendment immunity. Unlike
arguments made in Plaintiff’s Response, 42 U.S.C. §
2000d-7(a)(1) does not waive sovereign immunity for
the claims at issue. See Coleman v. Court of Appeals
of Md., 566 U.S. 30, 43-44 (2012) (holding Congress

Pet. App. 15
did not validly abrogate states’ sovereign immunity
from suits for money damages under FMLA’s self-care
provision); Bd. Of Trustees of Univ. of Alabama v.
Garrett, 531 U.S. 356, 360 (2001) (holding that suits
by employees of governmental entities for money
damages under Title I of ADA are barred by Eleventh
Amendment); Nelson v. Univ. of Texas at Dallas, 535
F.3d 318, 321 (5th Cir. 2008) (noting that self-care
provision was not in response to gender
discrimination and, thus, sovereign immunity defense
applies).
Furthermore, sovereign immunity bars
Plaintiff’s TCHRA because Texas has not clearly
consented to suit in federal court. See Pequeno v. Univ.
of Texas at Brownsville, 718 F. App’x 237, 241 (5th Cir.
2018) (noting TCHRA waives Texas’s immunity from
suits in state court but not in federal court); Perez v.
Region 20 Edu. Serv. Ctr., 307 F.3d 318, 332 (5th Cir.
2002). For the foregoing reasons, IT IS HEREBY
ORDERED that TAMU’s Motion to Dismiss is
GRANTED. (Instrument No. 6).
The Clerk shall enter this Order and provide a
copy to all parties.
SIGNED on this __8th__ day of April, 2020
_________________________
VANESSA D. GILMORE
UNITED STATES DISTRICT JUDGE

Pet. App. 16
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CHRISTOPHER SULLIVAN
CIVIL ACTION NO.:4:19-cv-04586
Plaintiff,
V
TEXAS A&M UNIVERSITY
Defendant.

JURY DEMANDED

PLAINTIFF’S ORIGINAL COMPLAINT
TO THE HONORABLE U.S. DISTRICT COURT
JUDGE:
Plaintiff Christopher Sullivan (“Mr. Sullivan”
or “Plaintiff”) files this Original Complaint for causes
of action pleaded below, complaining of and about
Defendant Texas A&M University (“TAMU” or
“Defendant”), and will respectfully show onto the
Court as follows:
[…]
V. FACTS
11. Mr. Sullivan began working for the TAMU
PD on June 28, 2012. Mr. Sullivan trained for

Pet. App. 17
approximately 5 months after his hire date. Mr.
Sullivan’s trainers included Sgt. Paxton and Sgt.
Hartman, among others. Neither Hartman nor
Paxton was a sergeant during this time of Mr.
Sullivan’s training.
12. Each trainer gave Mr. Sullivan excellent
scores overall during his first 5 months and he was
recommended to be put through an abbreviated
training program.
13. On February 29, 2012, an Emergency
Medical Services vehicle took Mr. Sullivan to an
emergency room with an increased heart rate. A
month and a half later, in April 2012, Mr. Sullivan
was formally diagnosed with atrial fibrillation. In May
2012, Mr. Sullivan had an ablation for atrial
fibrillation. Mr. Sullivan had 2 more ablations in
2014, while employed by Texas A&M University
Police Department. During his job interview with
TAMU PD, he made Sgt. Johnson aware of his heart
condition. Mr. Sullivan’s attending physicians gave
him optimistic recovery prognoses, expecting a full
recovery, after the treatment was completed in 2012.
14. On March 19, 2013, Mr. Sullivan was
exposed to autoclave overheating and inhalation of
smoke while on duty for TAMU PD.
15. On May 6, 2013, Mr. Sullivan was given a
new bona fide offer of employment by TAMU PD for
Data Entry and Filing, based on Mr. Sullivan’s health
issues.
16. On May 10, 2013, Dr. James Bond, Mr.
Sullivan’s attending physician, instructed Mr.
Sullivan to stay home until May 13, 2013, and Mr.
Sullivan received a “return to work form” from Dr.

Pet. App. 18
Charles Moore. However, Dr. Moore further requested
that Mr. Sullivan take leave from May 7 until May 22,
2013, and he released Mr. Sullivan with no
restrictions on May 22, 2013.
17. On June 3, 2013, Mr. Sullivan had a follow
up for his atrial fibrillation procedure, with a new
return to work date of June 18, 2013, as prescribed by
the physician.
18. On June 4, 2013, Mr. Sullivan received a
sick pool leave withdrawal form for 68 hours from
TAMU PD.
19. On June 20, 2013, Dr. Nancy Dickey
ordered a radiology brain MRI (sinus tachycardia
investigation). Mr. Sullivan received a work release
for June 24, 2013 and 80 hours of sick pool leave
withdrawal on June 29, 2013.
20. In 2013, prior to requiring unforeseen
medical attention, Mr. Sullivan received three
quarterly evaluations from Sgt. Paxton, his supervisor
at TAMU PD. Sgt. Paxton was a firstyear,
inexperienced supervisor during Mr. Sullivan’s time
with him. The feedback on all three evaluations
provided that Mr. Sullivan’s performance met or
exceeded expectations. However, around the time of
Mr. Sullivan’s diagnosis and subsequent health leave,
Sgt. Paxton’s attitude towards Mr. Sullivan started
changing. In late 2013, Sgt. Paxton commenced
singling out Mr. Sullivan and treating him differently,
compared to his other reports. Subsequently, Mr.
Sullivan received lower marks during his annual
evaluation, which stated that the “improvement was
needed.” This annual review used the information
from “manager’s notes,” which notes Mr. Sullivan was

Pet. App. 19
not allowed to see or read until after his termination.
It is unknown whether Mr. Sullivan was ever able to
see the entirety of Sgt. Paxton’s manager’s notes.
However, the ones that were made available to Mr.
Sullivan clearly show that some of the notes used, at
least in part, were covering the time periods when Mr.
Sullivan was receiving good quarterly evaluations.
21. In May 2014, while at a training event in
Austin, Mr. Sullivan suffered from another bout of
atrial fibrillation, in front of coworkers, and was
hospitalized. Mr. Sullivan continued to be impacted by
his condition throughout the year, which negatively
affected his ability to perform his work on the full
schedule. In June 2014, Mr. Sullivan had undergone
another procedure to remedy his condition, but,
unfortunately, he needed more sick leave hours from
TAMU PD in order to recuperate and resume his full
duties.
22. In 2015, Mr. Sullivan had a new supervisor,
Sgt. Elkins. Sgt. Elkins treated Mr. Sullivan more
fairly than Sgt. Paxton. However, seeing positive
changes in Mr. Sullivan’s mood, TAMU PD’s
management transferred Mr. Sullivan away from Sgt.
Elkins because Mr. Sullivan was not being
admonished by Sgt. Elkins, as TAMU PD personnel
would prefer.
23. In 2016, Mr. Sullivan was transferred to
work under the supervision of Sgt. Rodriguez, a firstyear, inexperienced supervisor. Mr. Sullivan went to
the police academy with Sgt. Rodriguez. Sgt.
Rodriguez picked up right where Sgt. Paxton left off,
by treating Mr. Sullivan worse than Mr. Sullivan’s
non-disabled peers and by creating a work

Pet. App. 20
environment that was by no means conductive to Mr.
Sullivan’s healing and productivity.
24. Around that time, TAMU PD invested into
a system called Guardian Tracking. Sgt. Rodriguez
started using the system to document any miniscule
problem with Mr. Sullivan’s performance. The
Guardian Tracking system was used by Mr. Sullivan’s
supervisors, often at the direction of Lt. Kary Shaffer,
to document every issue possible, however minor, to
use it against Mr. Sullivan. Mr. Sullivan also knows,
from personal conversations with Lt. Shaffer, that Lt.
Shaffer’s mother had been treated with at least two
ablation procedures for the same condition as Mr.
Sullivan’s. Mr. Sullivan is also aware that Lt. Shaffer
knows that his mother saw the same group of doctors
based in Austin, Texas, for her condition. Lt. Shaffer
was the supervisor over the entire patrol division at
the time Mr. Sullivan was terminated.
25. By the end of 2016, Mr. Sullivan was
transferred again, this time to Sgt. Hartman’s
supervision. On a prior internal survey, Mr. Sullivan
purposely omitted Sgt. Hartman as a possible choice
for his supervisor. Sgt. Hartman utilized the
Guardian Tracking system against Mr. Sullivan on
many occasions, despite the fact that the system was
only to be used to document discussions and not for
disciplinary action, per TAMU PD’s internal policy.
Sgt. Hartman, on at least several of those occasions,
used the Guardian Tracking system at the direction of
Lt. Shaffer.
26. On January 23, 2017, Mr. Sullivan
experienced a medical episode at work. His heart rate
rose unexpectedly again, and he drove himself to a

Pet. App. 21
nearby emergency medical service station (EMS). Sgt.
Hartman arrived at the EMS station shortly after
hearing Mr. Sullivan check out on the radio, and he
listened to Mr. Sullivan answering questions about
his medical history and medications to the EMS
personnel. Sgt. Hartman observed all procedures
performed on Mr. Sullivan and heard all
conversations that took place in the room. The very
next day, a copy of a “Letter of Expectations” was
uploaded to Guardian Tracking by Sgt. Rodriguez,
targeting Mr. Sullivan’s performance which was
signed and dated approximately 6 to 7 months prior to
this health incident. It is at the very least suspect that
TAMU PD would hold on to such letter for a prolonged
period of time and upload it the day after Mr.
Sullivan’s condition recurred.
27. Mr. Sullivan continued to be harassed by
other supervisors who utilized the Guardian Tracking
to build up a file that would show Mr. Sullivan in a
less positive light. Mr. Sullivan’s career at TAMU PD
came to an abrupt end on November 14, 2017. Mr.
Sullivan was called in for a meeting with Chief Ragan
and Assistant Chief Robert Meyer. When Mr. Sullivan
arrived, he was presented with a letter stating that
his employment was terminated, with the pay
continuing until November 28, 2017. Mr. Sullivan was
not allowed to work for those remaining 2 weeks.
28. Mr. Sullivan was escorted throughout the
building to collect his personnel files and personal
effects. When Mr. Sullivan received his documents, he
noticed that one folder in the office contained all his
doctor’s notes, medical records, FMLA paperwork, and
symptom information, to name a few items. The file

Pet. App. 22
containing all or this information was described to Mr.
Sullivan by Karen Terrell as his “Personnel File.” It
was apparent that Mr. Sullivan’s personnel file stood
out, compared to other employees’ files, because of his
extensive medical history, which made him a liability
to supervisors at TAMU PD.
29. Mr. Sullivan immediately requested an
appeal and a complete investigation of his
termination. Mr. Sullivan was promised an
investigation and a copy of the report on the findings
of the investigation. However, pending the
investigation, Mr. Sullivan’s termination was marked
as a “general discharge” 1, which would make it harder
for him to find a reputable job, similar to the one he
held at TAMU PD. In the meanwhile, Mr. Sullivan’s
medical history remained stored in his personnel file
compiled during his employment at TAMU PD.
30. Mr. Sullivan was never given a final
decision on his appeal, in violation of TAMU PD’s own
policy, until it was provided to him at a court date in
2018.
31. Mr. Sullivan had worked for TAMU PD for
almost five and a half (5 ½) years. Mr. Sullivan’s
career started out strong, with great grades in
training and positive evaluations. Prior to him
acquiring a known disability, he earned regular pay
increases and promotions, finishing with the rank of a
Police Officer III. However, once Mr. Sullivan began
to suffer from serious medical problems, his
Plaintiff requested the appeal to change his termination from a
“general discharge” to a “honorable discharge.” This would have
made it easier for Plaintiff to be rehired. Especially, since
Plaintiff was never reprimanded

1

Pet. App. 23
evaluation grades immediately went down, and he
was blindsided at a yearly evaluation by “managers’
notes” that he was never allowed to see in full.
32. The most insignificant of issues with his
performance were scrupulously documented by
TAMU PD using Guardian Tracking, just to be used
against Mr. Sullivan later on. At the same time, the
termination was the only formal disciplinary action
that Mr. Sullivan had ever been given. There was no
opportunity for remedial training and no form of
progressive discipline. After Mr. Sullivan’s on-duty
medical episode on January 23, 2017, Guardian
Tracking was almost immediately resorted to, in order
to “build a case” against him to justify his termination.
33. In the University’s own HR response, it was
documented that Mr. Sullivan’s health was discussed
in at least one supervisors’ meeting, if not more. The
following is a direct quote from assistant chief Robert
Meyer in response to Mr. Sullivan’s original HR
complaint after termination:
““Meyer stated that UPD tried very hard to
take actions based on his disability early on because
of the safety concern (i.e. job change, termination,
etc.), but was told they could not according to the law.
Since then, Meyer told his supervisors to address
performance issues, and not worry about Sullivan’s
medical issues.”
34. Assistant Chief, Robert Meyer, was the
direct supervisor over the patrol division at that time.
Lt. Kary Schaffer answered directly to Assistant Chief
Meyer in the chain of command.
[…]

Pet. App. 24
APPENDIX E
LABOR CODE
TITLE 2. PROTECTION OF LABORERS
SUBTITLE A. EMPLOYMENT DISCRIMINATION
CHAPTER 21. EMPLOYMENT DISCRIMINATION
SUBCHAPTER A. GENERAL PROVISIONS
Sec. 21.211. ELECTION OF REMEDIES. A person
who has initiated an action in a court of competent
jurisdiction or who has an action pending before an
administrative agency under other law or an order or
ordinance of a political subdivision of this state based
on an act that would be an unlawful employment
practice under this chapter may not file a complaint
under this subchapter for the same grievance.

Pet. App. 25
APPENDIX F
Authority & Funding
TWC’s Civil Rights Division (the Division)
enforces Texas Labor Code, Chapter 21. The Division
enters into an Annual Worksharing Agreement and
contract with the U.S. Equal Employment
Opportunity Commission (EEOC). The Division also
enforces the Texas Fair Housing Act. The U.S.
Department of Housing and Urban Development
(HUD) enters into a cooperative agreement with the
Division.
EEOC and HUD allocate funds to state and
local agencies that investigate complaints filed under
state or local laws that are substantially equivalent to
the federal laws. These funds in general on based on
case closures.
Texas Labor Code, Chapter 21, the Texas Fair
Housing Act (Texas Property Code, Chapter 301) and
other state and federal laws and regulations govern
the programs administered by the Division. Other
federal and Texas laws and regulations include:
x Title VII of the Civil Rights Act of 1964, as

amended
x The Age Discrimination in Employment Act,
as amended
x The Americans with Disabilities Act, as
amended
x Title VIII of the Civil Rights Act of 1968, as
amended

Pet. App. 26
x Texas Administrative Code, Chapter 40,

Section 819
x 29 Code of Federal Regulations
x 24 Code of Federal Regulations
x Chapter 419, Texas Government Code (state
military training / deployment)

Pet. App. 27
APPENDIX G
THE TEXAS CONSTITUTION
ARTICLE 1. BILL OF RIGHTS
Sec. 19. DEPRIVATION OF LIFE, LIBERTY,
PROPERTY, ETC. BY DUE COURSE OF LAW. No
citizen of this State shall be deprived of life, liberty,
property, privileges or immunities, or in any manner
disfranchised, except by the due course of the law of
the land.

Pet. App. 28
APPENDIX H
THE AMENDMENTS TO THE CONSTITUTION OF
THE UNITED STATES AS RATIFIED BY THE
STATES
AMENDMENT XI
Passed by Congress March 4, 1794. Ratified February
7, 1795.
The Judicial power of the United States shall
not be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
Note: Article III, section 2, of the Constitution
was modified by amendment 11.

Pet. App. 29
APPENDIX I
THE AMENDMENTS TO THE CONSTITUTION OF
THE UNITED STATES AS RATIFIED BY THE
STATES
AMENDMENT XIV, §1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

